Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    HIV/AIDS: NURSING HOME
  DISCRIMINATION COMPLAINTS




               AUGUST   1993
                       OFFICE OF INSPECTOR                  GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                           OFFICE OF AUDIT              SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing semices for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                     AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Philadelphia regional office under the direction of Joy Quill,
Regional Inspector General and Robert A. Vito, Deputy Regional Inspector General. Project
staf~

REGION                                         HEADQUARTERS
Isabelle Buonocore, Project Leader             Alan Levine, Program Specialist

Nancy J. Molyneaux, Lead Analyst               Barbara Tedesco, Mathematical Statistician

David F. Wright, Program Analyst


For additional copies of this report, please contact the Philadelphia regional office at (215)

596-0606.

Department of Health and Human Services

        OFFICE OF
    NSPECTOR GENERAL




     HIV/AIDS: NURSING HOME
   DISCRIMINATION COMPLAINTS




          AUGUST   1993   0EI-03-91-O0960
              EXECUTIVE                         SUMMARY

PURPOSE

This report (1) identifies government agencies that investigate discrimination
complaints filed against nursing homes that do not admit persons with the human
immunodeficiency virus (HIV) or acquired immune deficiency syndrome (AIDS), and
(2) describes the number and outcomes of complaint investigations.

BACKGROUND

As AIDS takes on characteristics of chronic illnesses, the need for skilled nursing and
long-term care becomes more urgent. Studies indicate it is difficult to find nursing
homes for persons with AIDS or HIV, and patients may remain in hospitals longer
than necessary because nursing home care cannot be found.

Until now, evidence of nursing home admission discrimination against persons with
AIDS or HIV has been largely anecdotal, and the number of complaints filed
nationwide was unknown. This is the first national study to document the volume of
filed complaints and describe their outcomes. It is also the first national study to
determine the complaint system, if any, at each level of government.

We conducted this inspection at the Federal, State, and local levels of government. At
each level, we identified which public agencies would investigate nursing home
admission discrimination complaints, and we interviewed the agency representative.
We collected data on complaints and used it to determine who filed complaints, length
of investigation periods, and case outcomes. We also analyzed anti-discrimination laws
and published materials informing the public about the agency and how to file a
complaint with them. At the local level we went a step further, conducting interviews
and analyzing data from private entities that provide health care or social services.

FINDINGS

Compikirm can be investigated at the Federa~ State, and local leveik

  �	   Within the Department of Health and Human Services (HHS), the Office for
       Civil Rights (OCR) investigates complaints.

  �	   Under certain conditions, the Department of Justice and the Department      of
       Housing and Urban Development may investigate.

  �	   Most States have at least one investigating agency. However, it is not always
       clear which type of agency has this responsibility.

  �    We found few investigating agencies at the local level.


                                            i
We found 615compikzintsfiled against musing homes from 1986 through 1991.

  .    More than half thecomplaints     were handled atthe   Federal level.

  .    There were far fewer complainants than complaint numbers suggest.

  .	   Federal, State, and local respondents believe complaint numbers are low
       compared to actual discrimination.

Over half the case outcomes involved corrective actions.

  .    Sixty-two percent of Federal and State outcomes included corrective actions.


  .    However, few patients gained admission.


  .    Fines or monetary penalties were rare.


  .    The majority of complaints took over 6 months to resolve.


I%e overaU complizint system k dijficult to use.

  .    Investigating agencies cannot be identified easily.

  .	   Public information does not specifically address nursing home discrimination
       against persons with AIDS or HIV infection.

  .    Those in a position to file complaints are reluctant to do so.

RECOMMENDATIONS

The OCR has national expertise in the area of nursing home admissions discrimination
against persons with HIV or AIDS. Its national database can identify and track these
complaints, and its printed materials specifically address this type of discrimination and
how to file complaints. Therefore, we recommend that OCR

  �	   lead a departmental initiative with the Public Health Service (PHS), the Health
       Care Financing Administration (HCFA), and the Administration on Aging
       (AoA) to improve public information about the occurrence of this type of
       discrimination and where to file complaints; and

  �    offer technical assistance to State and local governments.

We also recommend that OCR

  �    meet its 3-month timeframe for resolving AIDS-related        complaints.



                                             ii
COMMENTS

Four HHSagencies commented onthedraft           ofthis report: the OCR, the PHS, the

HCFA, and the AoA. All commented favorably on working together on a

Department initiative to provide the public with information. None disagreed with the

desirability of sharing expertise and resolving cases faster. But an overriding concern

was how to comply with our recommendations with limited resources.


We believe the agencies involved in the initiative could assist each other in developing

creative ways to address this concern since the need for nursing home care for persons

with AIDS is likely to increase.


The OCR advised us they are considering a new policy which will require that

complaints involving health-endangering situations be given priority over other

complaints. The proposed policy would replace the 1987 requirement to resolve

AIDS-related cases within 3 months. We continue to recommend that OCR meet the

3-month timeframe on AIDS cases until such time as the policy is officially replaced.


Regarding the agencies’ general and technical suggestions, we adopted several which

made the narrative clearer but did not alter our meaning or require additional data

collection.


The full texts of agency comments are in Appendix D.





                                            ...
                                           111
                   TABLE                    OF CONTENTS

EXECUTIVE      SUMMARY


INTRODUCTION .        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”.”””””””””.                ““1


FINDINGS     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”””””””””.””.              ““5

 Investigating agencies       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. ”” ”.”.    ”””” ”””.5

 Complaint cases      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”””””””””.””””               “7

 Case outcomes.       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...””””””””””””                 11

 Complaint system       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. +. ””” O”””.”..””                13


RECOMMENDATIONS                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”””        16


ENDNOTES       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


APPENDICES


Federal Investigating Agencies.           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1

State Investigating Agencies..          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-l

Local Investigating Agencies..          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l

Comments    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. OO. O.$OOS” D-l
                         INTRODUCTION
PURPOSE

This report (1) identifies government agencies that investigate discrimination
complaints filed against nursing homes that do not admit persons with the human
immunodeficiency virus (HIV) or acquired immune deficiency syndrome (AIDS), and
(2) describes the number and outcomes of complaint investigations.

BACKGROUND

An estimated 1 million Americans are infected with the HIV.l While it may take
years for the effects of the HIV to appear, all those infected will eventually develop
AIDS. Although often thought of as a single disease, AIDS is a group of specific
clinical conditions indicative ‘of a severely damaged immune system. As of January 1,
1993, the Centers for Disease Control (CDC) expanded the official definition of AIDS
to include additional conditions. Under the new definition, the number of Americans
diagnosed with AIDS could double.2

Until now, evidence of nursing home admission discrimination against persons with
AIDS or HIV has been largely anecdotal, and the number of complaints filed
nationwide was unknown. This is the first national study to document the volume of
filed complaints and describe their outcomes. It is also the first national study to
examine complaint systems, if any, at the Federal, State, and local levels of
government.

Growing Need for Long-Term Care

Studies indicate that AIDS is beginning to take on the characteristics of chronic
illnesses. This change is associated with therapeutic advances capable of lengthening
and improving the quality of lives of persons infected with the virus. As the shift
toward long-term illness becomes greater, the need for skilled nursing and long-term
care becomes more urgent.3

Nunw”ngHome Admkrion Discrimination Against Pemons with HIV or AIDS

Studies also indicate it is difficult to place someone with HIV infection or AIDS in a

nursing home.4 Some attribute this difficulty to discrimination. As the number of

HIV/AIDS cases grows, particularly among the poor, there is increasing concern about

discrimination by nursing homes in the Medicaid program. The Health Care

Financing Administration’s (HCFA) Office of Medicaid Management has advised its

regional staff that “discrimination is thought to be a primary reason for the difficulty

HIV/AIDS patients have in gaining access to medical services, especially nursing home

admission.”5 Acting on this concern, the Medicaid Bureau included an element on
discrimination by nursing homes in its 1992 program review for its HIV/AIDS
initiative.G

Patients with AIDS or HIV-related illnesses may remain in hospitals longer than
necessary if discharge planners cannot find nursing homes that will admit them. When
this occurs, patients and their insurers pay for a higher level of care than is necessary,
and AIDS patients in hospitals are at risk of developing more infections.

Laws l+otecting the Handicapped Cover Perxons with HIV or AIDS

Federally funded nursing homes that discriminate against persons with HIV or AIDS
violate Federal law. Under Section 504 of the Rehabilitation Act of 1973, as set forth
in 45 CFR Part 84, handicapped individuals are protected from discrimination. This
law has been interpreted to cover persons with contagious diseases, including HIV and
AIDS.7 In addition, nursing home regulations at 42 CFR Part 442.12 (d) (2) state
that nursing homes may not receive Medicare and Medicaid funding “even though
certified by the State survey agency, if the facility fails to meet the civil rights
requirements set forth in 45 CFR Parts 80, 84, and 90.” Depending on their location,
nursing homes that discriminate against persons with HIV or AIDS also violate State
and local laws.8

METHODOLOGY

We collected data in three phases, each corresponding to the Federal, State, or local

level of government. Data was collected from February to August, 1992. In each

phase, we determined which public agencies would investigate nursing home admission

discrimination complaints. We interviewed each investigating agency’s director, or a

representative, by telephone. Some agencies were prepared to investigate complaints

but had not received any. We collected complaint data from agencies that had

complaint cases. We used the complaint documents to determine who filed

complaints, length of investigation periods, and case outcomes. We also analyzed anti-

discrimination laws and material informing the public about the agency and how to file

a complaint with them.


At the local level we went a step further, conducting interviews and analyzing data

from private entities that provide health care or social services to persons with AIDS

or HIV infection.


Phase One - Federal Level

Phase one focused on the Office for Civil Rights (OCR) within the Department of
Health and Human Services (HHS). We interviewed all 10 regional managers and
obtained the total number of complaints received through 1991 from OCR’s national
database. We then reviewed documents for all cases re~eived in 1989 and 1990. We
chose this period because it allowed us to examine 2 full years of resolved complaint


                                             2
cases for which documents would still be available in OCR regional offices. Cases
prior to 1989 might not have been available, and cases after 1990 might not have been
resolved.

Phase Two - State Level

In phase two, we contacted agencies in all States and the District of Columbia
(hereafter referred to as a State) to determine if they would investigate nursing home
discrimination complaints. Agencies were initially identified by OCR respondents. If
the agency identified by OCR would not investigate the complaints, we asked for the
responsible agencies. With each State agency contact, we asked if there were any
other agencies in their State which would investigate. We did not interview agency
directors if the agency would not investigate complaints of nursing home admission
discrimination.

States received far fewer complaints than OCR. Therefore, on the State level we
collected data for all years from 1986 through 1991 and from four complaints received
in early 1992. (There were no complaints filed prior to 1986 at any level.)

Phase Three - Local Level

In the third phase, we collected data from a total of 10 metropolitan areas.9 We
drew a sample of cities from CDC’S report of AIDS cases in 95 metropolitan areas.
The sample consisted of areas with a high incidence of AIDS and areas with a low
incidence. After identifying public investigating agencies in the sample cities, we
interviewed an agency representative and collected whatever complaint data was
available.

As previously mentioned, we also collected data from private entities that serve the
HIV/AIDS population. Forty-seven respondents were selected based on their
knowledge in at least two of the following areas: (1) appropriateness of nursing
homes for persons with HIV or AIDS, (2) prevalence of nursing home admission
discrimination, (3) complaint process, and (4) cases of filed complaints. The
respondents were either involved in finding nursing home care or were in a position
where they might provide information about filing a discrimination complaint. We
interviewed the respondents and collected data on (1) the services they provide to
persons with HIV or AIDS, (2) the complaint system, and (3) complaints they filed or
were aware of. Most interviews were by phone. We conducted on-site interviews in
only one of the sample cities.

This study was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           3

SCOPE

This report deals only with discrimination against persons with HIV or AIDS by
nursing homes that participate in federally funded programs. Whenever we use the
term complaint, we are referring to this specific type of discrimination complaint.

This report further deals only with complaints that were filed with a public
investigating agency. Anecdotal cases of discrimination in which a complaint was not
filed were not included in our analysis.

We did not attempt to determine the amount of actual discrimination. Although we
know how many complaints were filed, there is no comparative data on the number of
HIV-infected persons who needed nursing home care or the number who applied for
such care.

State agencies sent us complaint data in different formats and levels of detail. As a
result, our analysis of some cases was based on several data sources. For example, if
case information was incomplete, we may have used data from the interview or other
materials the respondent sent us.

In one State, a complainant filed 162 complaints. This high number of complaints by
one complainant skews the aggregate data on State complaints. Therefore, in our
findings we note if we are including or excluding this mass filing.




                                          4

                                FINDINGS

COMPLAINTS CAN BE INVESTIGATED                  AT THE FEDER&       STATE, AND
LOCAL LEVELS.

Within HHS, the OjJicefor ~“vil Rights (OCR) investigates complaints

Regional OCR staff have investigated complaints since 1987 (see Appendix A for a list
of OCR regional offices).     Section 504 of the Rehabilitation Act of 1973 grants OCR
legal authority to handle these cases. In 1992, OCR was given added responsibility
under Title II of the Americans with Disabilities Act of 1990. The OCR now also
investigates complaints against State and municipal nursing homes that do not receive
Federal funds.

The OCR has a national database which collects and tracks complaint information
from each of the 10 regional offices. Through the database, one can identify
complaints related specifically to HIV/AIDS, nursing homes, admissions, and Section
504 of the Rehabilitation Act. The OCR classifies nursing home complaints under the
broader category of public accommodations.

The normal investigation period for OCR cases begins with receipt of the complaint.
It ends when the nursing home is found in compliance or when an agreement
addressing deficiencies is signed. The time a nursing home is given to submit proof
that all deficiencies have been corrected is called the monitoring period.

In 1987, OCR made complaints related to AIDS its highest priority. The agency
instituted an expedited process for these cases that was not to exceed 3 months.l”
As we were drafting this report, OCR advised us they intend to replace this policy.
The proposed new policy would not be focused on AIDS-related complaints, Instead,
any complaint involving a life-threatening or health-endangering situation would be
resolved within 80 days.

Complaint investigations result in a letter of findings to the nursing home and
complainant. The letter indicates whether the nursing home is in compliance with
Federal laws and regulations. If a nursing home is not in compliance, a plan is drawn
up specifying the corrective actions to be taken as well as the time period in which the
corrections must be made. If a nursing home refuses to correct violations, OCR can
take steps to cut off its Federal funds.

Prior to 1991, some cases could be resolved informally, before issuance of a letter of
findings. Nursing homes could take corrective actions and come into compliance or
sign a voluntary compliance agreement specifying how and when they would achieve
compliance. While both these resolutions required corrective actions, the nursing
home was not cited for violations. The OCR discontinued these types of resolutions in
June 1991.



                                           5

Under certain conditions, other Federal ag~”es   investigate.

Two other Federal agencies have authority to investigate complaints. One is the
Department of Housing and Urban Development (HUD). Under the Fair Housing
Amendments of 1988, HUD may investigate nursing homes which are considered
residences. The HUD would not be involved with other types of nursing homes, e.g.,
facilities providing temporary skilled nursing care. The HUD’s national database
includes Fair Housing complaints. However, it cannot identify complaints associated
with HIV or nursing home admission. Therefore, we confined our Federal level
inspection to OCR.

In our State level inspection, we found HUD has work-sharing agreements with at
least one agency in three different States. In one of these States, HUD and the State
agency jointly investigated four cases.11

The other agency with authority to investigate complaints is the Department of Justice.
As noted above, Title II of the Americans with Disabilities Act (ADA) covers State
and municipal nursing homes. The Justice Department designated OCR as the lead
investigative agency for Title II but will be responsible for any judicial enforcement
that may be necessary to enforce a compliance agreement OCR obtains. Title III of
the ADA covers privately owned facilities that offer health care or social services,
regardless of whether they receive Federal funds. Generally, the Justice Department
is responsible for investigating private facilities under Title III. Where there is
overlapping jurisdiction, Justice and OCR will coordinate their investigative activities
on a case-by-case basis.

Most States have at least one investigatingageruy. Howeve6 it is not always clear which
~pe of agency investigates complaimk

Seventy-two agencies in 46 States investigate complaints (see Appendix B). Twenty-
seven States have one agency and 19 States have more than one. Five States do not
have an agency to investigate these complaints.12 Contacts in these five States said
they would refer complaints to HCFA or OCR.

While most investigating agencies (58 of 72) are of two types, overall six types were
identified. There were 36 civil rights or human rights agencies and 22 agencies that
license nursing homes and certify them for participation in the Medicare and Medicaid
programs. These types of agencies received most of the complaints we discuss later in
this report.

The other types of agencies include eight Long-Term Care Ombudsmen, four
Medicaid, one Protection and Advocacy for the Disabled, and one Health
Department’s Division of Disease Control. Of this group of agencies, two ombudsmen
received at least one filed complaint. While ombudsmen ordinarily serve as advocates
for elderly nursing home residents, we were referred to eight who said they felt
responsible for any type of complaint against a nursing home.


                                            6

State agencies investigate complaints under the authority of Federal laws, State laws,
or a combination. Human rights agencies usually investigate under State anti-
discrimination laws and/or Section 504 of the Federal Rehabilitation Act, while
licensing agencies investigate under Federal and State nursing home regulations.

Complaint classification systems varied by type of agency and the legal authority to
investigate. Civil rights and human rights agencies classified complaints as public
accommodations cases. Licensing agencies generally classified them as residents’ rights
cases. Overall, State databases and tracking systems were not as specific as OCR’S.
State complaints were generally identified by searching paper logs or case folders.

When State complaint investigations uncover deficiencies, they are resolved through
corrective actions and/or settlement agreements. Procedures and names of
agreements vary by agency type. Most human rights agency complaints were resolved
through pre-determination agreements. These are essentially the same as the
voluntary compliance agreements OCR used before 1991. Licensing agencies resolve
complaints through a plan of correction. Ombudsmen do not have enforcement
powers. They try to reach settlements informally by mediating with involved parties.
If a resolution cannot be reached, the case is referred to another agency.

We found finv investigatingagencies at the local level.

We identified one public investigating agency in each of four cities (see Appendix C).
One agency was a city attorney’s office, and the others were human rights agencies.

These four agencies investigated complaints under local anti-discrimination laws. Two
had limited jurisdiction that did not include federally funded nursing homes.
Respondents from both of these agencies said any complaints against a federally
funded nursing home would be referred to OCR.

Complaints against nursing homes would be classified as public accommodations cases
in these agencies. This classification was used in human rights and civil rights agencies
at all government levels.

WE FOUND 615 COMPLAINTS              FILED AGAINST NURSING HOMES FROM
1986THROUGH 1991.

More than hay the complaints were handled at the Federal level

Of the 615 complaints filed, OCR received 363 complaints in 6 years while States
received 251. The number of State complaints includes one State’s 162-case mass
filing. We found only one complaint filed with a local public agency. Table 1 on the
next page shows the number of complaints agencies received each year.




                                             7

    Table 1.
                                           COMPLAINTS FILED ANNUALLY
                                 FEDERAL                  STATE                LOCALJ                TOTALS
                                                                                                                 J
               1986                    0                      1                     0                   1
               1987                   53                     17                     0                  70
               1988                   92                     22                     1                 115
               1989                   64                      1                     0                  65
               1990                   94                     10                     0                 104
               1991                   60                    2od                     o                 260
             TOTAM                   363                    251                     1                 615
        1 Based on a review of 10 metropolitan areas.
        2 Number includes four 1992 cases, seven inaccessible cases, and the 162-case mass filing.



According to OCR’s national database, complaints regarding nursing home admission
discrimination represent 41 percent of all AIDS-related complaints and 94 percent of
all AIDS-related nursing home complaints received from 1987 through 1991. We do
not know what percentage of AIDS-related complaints involved nursing homes or
admission discrimination at the State and local levels.

Table 2 shows the complaint cases we reviewed and the year they were filed. We
reviewed 401 cases representing nearly two-thirds (65 percent) of the 615 filed. Of the
cases reviewed, 156 were received by OCR in 1989 and 1990. Files for two other
Federal complaints received during this period could not be located. At the State
level, we reviewed 244 cases filed with 15 agencies from 1986 through 1991. (This
includes four complaints filed in early 1992.) At least seven other complaints were
filed at the State level, but the cases were either pending or could not be accessed.

   Table 2
                                           COh4PLAlNT CASES REVIEWED
                            FEDERAL CASES                STATE                   LOCAL                TOTALS
                               Two Years                  CASES                   CASES
                                                         Au Years                Alf Years
             1986                                             1                                             1
             1987                                            17                                             17
             1988                                            22                         1                   23
             1989                    63                       1                                             64
             1990                    93                      10                                         103
             1991                                           1931                                        193
         TOTALS                     156                     244                         1               dm
     1 Number excludes seven inaccessible cases.




                                                             8

Asshown below, the244State       cases were handled bythree ~pes of agencies. While
we identified a total of 72 State agencies that investigate discrimination complaints
against nursing homes, only 15 agencies were associated with the 244 cases.

      TYPE OF
                        NUMBER OF AGENCIES       TOTAL NUMBER

      INVESTIGATING AGENCY
           WITH CASES               OF CASES

      Civil/Human Rights
                   9                  217

      License and Certification
            4                  24

      Long-Term Care Ombudsmen
             2                  3

      TOTALS
                               15                 244


lkere were far fewer comphinanfi than complaint numbem su~est.

Complaints often represent one individual who alleges discrimination by a number of

nursing homes. The 401 cases we reviewed were filed by 65 complainants. Table 3

below shows the types of complainants and how many of each type filed cases at the

Federal and State levels. Some complainant types were individuals such as the

patients themselves, relatives, social workers, and physicians. Others were groups such

as hospitals, advocacy groups, public agencies, and nursing homes. A patient filed the

one local complaint. Local information is not included in Table 3.


While few patients were complainants, most complainants filed cases on behalf of

patients who were denied nursing home admission. Only six complainants filed cases

which did not involve an individual patient. These complaints were test cases. They

were investigated to determine nursing home access for persons with HIV/AIDS as a

group rather than for a specific patient. The test cases were filed by advocacy groups

and State agencies.


          Table 3.
                            FEDERAL AND STATE COMPLAINANTS BY TYPE
                     TYPE           FEDERAL         STATE        TOTAL8
           Hospital                     8             7              15
           Relative/Friend              6             4              10
           State Ageney                 3             6              9
           AdvoeaeyGroup                6             2              8
           Patient                      1             5              6
           Anonymous                    o	            6              6
           Legal Advocate               3             0              3
           Federal Ageney               1             1              2
           Social Worker                o             2              2
           Physician                    o             1              1
           Local Agency                 o             1              1
           Numing Home                  1             0              1
           TOTALS                       29            35             64



                                              9

Respondents believe complaint numben are low compared to actual discn”rm”nahon.

Respondents at each government level and in local private agencies generally shared
the belief that the number of filed complaints does not reflect the prevalence of
nursing home discrimination against persons with HIV or AIDS. The number of
complaints is much lower than actual cases of discrimination, they said. The main
reason few complaints are filed is that people do not complain; they just stop trying to
place patients in nursing homes which have denied admission to persons with HIV or
AIDS in the past.

All 10 OCR regional managers believe the number of complaints filed is lower than
actual instances of discrimination. A common explanation for low numbers was that
filing complaints is not a priority for persons in poor health or for hospital discharge
planners. Other reasons noted were that persons with HIV/AIDS handle their own
situation or seek help from advocacy groups, lack of OCR staff limits outreach activity,
and public agencies at every level are not willing to deal with the issue.

Over half of State agency respondents (37 of 69) also thought there was more
discrimination than complaint numbers indicated. They said people tend not to
complain for the following reasons: they do not know their rights, they do not know
whom to call, they are too sick to think about it, they are afraid, the process takes too
long, and discrimination is hard to prove.

In contrast, over a quarter of State respondents (20 of 69) said the number of
complaints did reflect the level of discrimination. Eight of these respondents said this
kind of discrimination was not a problem. Five said nursing homes admit persons with
AIDS. The remaining seven said other care was available or the State had a low
incidence of AIDS.

Local government respondents offered two reasons why complaint numbers are low
compared to actual discrimination. One is that hospital social workers, who are in the
best position to file complaints, do not want to jeopardize their working relationship
with nursing homes. Another reason is that advocacy groups step in and resolve
problems with nursing homes informally. The threat of a law suit by an advocacy
group can make a nursing home change its policy.

Most local private agency respondents (40 of 47) said the number of complaints did
not reflect the level of actual discrimination. These respondents provide health care
or social services to persons with AIDS or HIV. Reasons complaints are few include:
people choose not to complain, people do not know how or where to file, people do
not know they have the right to complain, the process is too cumbersome, and patients
do not have the energy or resources. Only two of these respondents filed complaints.
OVER HALF THE CASES REVIEWED                                   INVOLVED   CORRECI’IVE    ACI’IONS.


Sixty-two percent of Federal and State outcom~ inchded corrective actions.

Nursing homes were required to take different corrective actions. Table 5 shows that
corrective actions were required in the majority of Federal and State outcomes.
Typical corrective actions include: adopting and publicizing a non-discriminatory
admission policy, notifying referral sources of non-discriminatory policy, instituting
universal precautions, training staff, maintaining a record of all persons who apply for
admission along with reasons why any are not admitted, discontinuing contractual
relationships with referral sources that discriminate, and modifying grievance
procedures.

Fewer than 20 percent (67 of 400) of the cases reviewed found nursing homes in
compliance. By this we mean discrimination was not substantiated. In over half the
Federal and State cases (23 1 of 400), agencies negotiated settlements wherein the
nursing home agreed to take corrective action and a violation was not cited. The one
local case was filed in court after the agency found probable cause of discrimination.
    Table 5.
                       CORRECTIVE ACTIONS COMPARED TO OTHER OUTCOMES1
                        TYPE                            FEDERAL           STATE         TOTALS
    Corrective Action./WolationCited                           9            9              18
    ~            Aetim/Wolation Not Cited                      95          136            231
    subtotals                                              104              145
                                                          (67%)           (59%)          (6:;)
    Nursing Home In Compliance
                                34          33              67
    Administrative Closure
                                    3           56              59
    Referred to Other Ageney
                                  o            1               1
    Wltlldrawn
                                                1            3              4
    Pending
                                                   14           2              16
    Data Not Available
                                        o            4               4
    Subtotals
                                              52                            151
                                                          (33%]           (4?%)          (%%]
    TOTALS
                                                 156             244           44m
                                                          (100%)          {100%)        (100%)
        1 Outcomes   for Federal   and State cases reviewed.




Agreements resolving a case often specify a timeframe during which the nursing home
provides evidence that corrective actions have been taken. This timeframe is called
the monitoring period. The length of monitoring periods in 62 OCR cases ranged
from 1 month to 2 years with an average of 8.4 months. On the State level,


                                                               11

monitoring in 26 cases (excludes the mass filing) lasted an average of 22 months; some
took 3 years. When the 162-case mass filing is included, the average monitoring
period for 139 cases was 16 months.

Few patients gained admission.

In the cases reviewed, 62 patients needed placement in nursing homes. As of the time
the cases were closed, only 12 patients were admitted. Six of the 12 went to nursing
homes involved in the complaint cases and 6 went to other nursing homes. The case
documents revealed that another 14 patients died, 5 went to other care settings, 2
withdrew their cases, 1 remained in the hospital, 1 declined the nursing home’s offer
to be admitted, 1 was asked to reapply for admission, and 1 was in the wrong
jurisdiction. The case documents we reviewed did not indicate what happened to the
remaining 25 patients.

As mentioned earlier, test cases are filed to determine nursing home access for
persons with HIV or AIDS as a special population and not on behalf of an individual
patient. Over half the cases reviewed, including the 162-case mass filing, fit this
catego~. Therefore, none of these could result in an admission.

Fines or monetary penaltitx were rare.

Agencies rarely proposed that nursing homes pay money in connection with
substantiated complaints. A civil rights agency in one State imposed a fine against one
nursing home. In another State, a licensing agency proposed monetary penalties from
$250 to $3,000 for four nursing homes. At the Federal level, the OCR does not have
authority to assess monetary fines or penalties.

i%e majority of compiizints took over 6 months to resolve.

Two-thirds of the cases reporting length of investigation period (256 of 377 cases) took
more than 6 months. The investigation period was from the date the complaint was
filed to the date findings were issued or a settlement agreement was signed. This does
not include time spent monitoring the nursing home.

While OCR’s policy, as mentioned earlier, is to resolve AIDS-related cases within 3
months, the average length of investigation period for 142 cases we reviewed was 6.6
months. Of the 142 cases, only 18 percent (25) were resolved within the required
timeframe. (The length of the investigation period was not available for 14 cases.) At
the State level, complaint resolution took an average of 12 months. Excluding the
162-case mass filing, the average was 7.4 months.




                                            12

THE OVERALL       COMPLAINT       SYSTEM IS DIFFICULT TO USE.

Investigating agencies cannot be identi&d ea.w”ly.

Public and private agency respondents had difficulty identifying investigating agencies.
As mentioned earlier, the number and type of State agencies which investigate
complaints are not consistent from State to State. This can be confusing to potential
complainants. Some State agency respondents did not know of other agencies in their
own State which investigate complaints.

Many State agency respondents also did not identify OCR as a Federal agency where
individuals could file a complaint. This is a problem for complainants who may call a
State agency and be told there is no other public investigating agency. The
complainant would then believe nothing more could be done and the Federal
government is not involved.

On the Federal level, OCR regional offices seemed well aware of State and local
human rights agencies, but not as aware of other types of agencies. Nearly half (33 of
72)	 the State investigating agencies we interviewed were not identified by OCR. If
complainants call OCR, however, their cases will be accepted and they will not have to
call another agency. On the other hand, complainants might be interested in filing
simultaneous cases with other agencies if they knew of that option.

Local private agency respondents said people do not know where or how to file a
complaint or even that they have a right to complain. Only 12 of 47 respondents
could identify an investigating agency. Six named State agencies and six said they
would call OCR. Five of the six respondents identi~ing OCR had been at AIDS
seminars where OCR representatives explained the law, described the complaint
process, and distributed complaint forms. The sixth respondent, a physician, learned
of OCR from a State agency manager.

I%blic information does not spec~cally address nursing home diwimination agaimu
persons with AIDS or HW infection.

Agencies have not been very effective in letting the public know they handle these
types of complaints. When available, public information is in the form of posters,
pamphlets, and fact sheets, Printed material is usually distributed to other public
agencies, nursing homes, and HIV/AIDS service providers. From the perspective of
local private agency respondents, the information is not reaching enough patients or
the professionals who help them.

The OCR regional managers said they distribute information to public and private
agencies, speak before various groups, and work with nursing home associations and
HIV/AIDS organizations. The two most frequently mentioned activities were
distributing information at workshops (6) and working with nursing home associations
(5). Some of OCR’s printed material explains Federal law, who is covered and under
what circumstances, and whom to call for help. Resources, however, vary from region
to region, and we did not determine if the same material is distributed by every
regional office.

Public information at the State level varies by agency type. State licensing agencies
and ombudsmen usually send posters or notices about residents’ rights to nursing
homes. These would not be seen by someone requesting admission, and rarely do the
materials mention admission policy, HIV, or AIDS. Civil rights and human rights
agencies try to send information to HIV/AIDS service providers but can only do so
when their budgets permit. In addition, most of their material is written in agency
jargon. For example, a pamphlet might read, “It is unlawful to discriminate in public
accommodations against persons who are handicapped or disabled.” The public would
not know that a nursing home is a public accommodation and that the handicapped
include persons with HIV-related conditions.

Some respondents from State agencies and local private agencies suggested that
complaint cases be publicized to increase general awareness about this kind of
discrimination.

l%ose k a position to jile complaints are reluctant to do so.

Respondents at each government level and in private agencies gave similar reasons
why complaint cases are not more numerous. The reason cited most often is that
those who make nursing home placements rarely complain. For example, if hospital
discharge planners learn that certain nursing homes will not take persons with HIV-
related illnesses, those homes will not be called for such patients again. The issue
ends there. A 1989 survey of hospital social workers in one State confirmed this
phenomenon.13

Some State and private local agency respondents said hospital social workers do not
want to risk alienating nursing homes by filing complaints. Also, complaints are not
filed because social workers are not in a position to determine whether the nursing
home’s reason for refusing the patient is true. Among the complaints we reviewed,
only two were filed by social workers.

Although two-thirds of local private agency respondents (32 of 47) said they have had
difficulty placing AIDS patients in nursing homes, only two respondents had filed
complaints. One respondent was a physician and the other was a nursing home
discharge planner.

Few patients file complaints. State and Federal respondents cited the extent of
patients’ illness as a primary reason for this. Another reason is patients do not want
to make their condition public.

Respondents at each level said the complaint process discouraged people from filing.
One respondent said, “Filing a complaint is a lot of work and effort,” and many felt
that neither patients nor social workers are able to make filing complaints a priority.
Respondents suggested that instead of entering the complaint system, placement staff
look for another nursing home or another type of care, discharge the patient, or leave
the patient in the hospital.




                                          15

                   RECOMMENDATIONS

THE OCR SHOULD LEAD A DEPARTMENTAL                     INITIATIVE TO IMPROVE
PUBLIC INFORMATION.

The OCR has national expertise in the area of nursing home admissions discrimination

against persons with HIV or AIDS. It is in the best position to spearhead an

information campaign with the participation of other agencies in the Department.

The other agencies are the Public Health Service (PHS), the Health Care Financing

Administration (HCFA), and the Administration on Aging (AoA). The initiative

should target public information to the following audiences: State and local

governments, hospitals, HIV/AIDS clinics, health facility discharge planners, medical

societies, professional associations, and HIV/AIDS social service and advocacy

organizations.


Public information should specifically address two areas. The first is that HIV

infection is considered a protected handicap under Federal law. All persons who meet

legal requirements for a qualified individual with handicaps are protected from

discrimination by nursing homes. The second is which public agencies at each

government level investigate complaints of such discrimination. People need to know

their rights and where they can file a complaint.


THE OCR SHOULD OFFER TECHNICAL                  ASSISTANCE TO STATE AND
LOCAL GOVERNMENTS.

The OCR has the knowledge and experience that could benefit State and local
governments. The OCR has handled more complaints of nursing home admission
discrimination against persons with HIV/AIDS than any other agency. It has a
national database that specifically identifies and tracks these complaints. It also has
Fact Sheets and other printed information that specifically address this type of
discrimination. Therefore, OCR should offer technical assistance in these areas.

THE OCR SHOULD         MEET ITS 3-MONTH TIMEFRAME               FOR AIDS-RELATED
com~.

In 1987, OCR recognized the need to expedite AIDS-related cases and established a
3-month timeframe for them. On average, however, the 1989 and 1990 cases we
reviewed took over 6 months to resolve. Recently, OCR has considered replacing the
1987 policy with one that gives priority to complaints involving health-endangering
situations, regardless of HIV. Until such time as the 1987 policy is officially replaced,
we recommend that OCR meet its 3-month timeframe for AIDS-related complaints.
We received comments on the draft of this report from: the OCR, the PHS, the

HCF~ and the AoA. All commented favorably on working together on a

Department initiative to provide the public with information. None disagreed with the

desirability of sharing expertise and resolving cases faster. But an overriding concern

was how to comply with our recommendations with limited resources.


We believe the agencies involved in the initiative (OCR, PHS, HCF~ and AoA) could

assist each other in developing creative ways to address this concern since the need for

nursing home care for persons with AIDS is likely to increase.


The OCR advised us they are considering a new policy which will require that

complaints involving health-endangering situations be given priority over other

complaints. The proposed policy would replace the 1987 requirement to resolve

AIDS-related cases within 3 months. We continue to recommend that OCR meet the

3-month timeframe on AIDS cases unti] such time as the policy is officially replaced.


Regarding the agencies’ general and technical suggestions, we adopted several which

made the narrative clearer but did not alter our meaning or require additional data

collection.


The full texts of agency comments are in Appendix D.





                                           17

                                   ENDNOTES



1.	   Centers for Disease Control, “HIV Prevalence Estimates and AIDS Case
      Projections for the United States: Report Based on a Workshop,” MwbidiY
      andk(ortality Weekly Repori, vol. 39, No. RR-16, p. 1 (Atlanta: CDC,
      November 1990).

2.	   Dear Colleague letter from James W. Curran, M.D., M.P.H., Assistant Surgeon
      General, October 1992.

      Faulkner and Gray, “CDC Proposes Expanded AIDS Definition,” Medicine and
      Health, vol. 45, no. 44, p. 2 (Washington, DC: Faulkner and Gray’s Healthcare
      Information Center, November 1991).

3.    A. E. Benjamin, “Chronic Care: Perspectives on AIDS and Aging,” Generations,
      p. 19 (Fall, 1989).

      A. E. Benjamin and James H. Swan, “Nursing Home Care for Persons with
      HIV Illnesses,” Generations, p. 63 (Fall, 1989).

      Erwin A. Carrier, Ed.D., Jeanette Bressler, MSW, and Wendy Blankfort-Doyle,
      MA, “AIDS and the Long-term Care System: A Nursing Home Sumey,” paper
      delivered at the Gerontological Society of America’s 40th Annual Scientific
      Meeting (Washington, DC, 1987).

      General Accounting Office, “AIDS: Delivering and Financing Health Services”
      (Washington, DC, 1989).

      J. David Greenberg, “HIV as a Chronic Disease: Implications for Health
      Services and Financing,” paper delivered at Decatur, GA (Baltimore: Medicaid
      Bureau, 1991).

      G. Kirby Holland and Karen Ohare Conley, “Providing Care for Persons with
      AIDS in a Long-term Care (Nursing Home) Setting,” prepared for Illinois
      Department of Public Health (Dixon, IL First Health Care, Ltd., 1988).

      Nathan L. Linsk and Reggi Marder, “Facing Nursing Home Resistance in
      Hospital Discharge Planning for People with HIV Infection” (Chicago:
      University of Illinois, 1989).

      Vincent Mor, “Implications of the AIDS Epidemic for Long Term Care”
      (Providence: Brown University, 1988).

      National Center for Social Policy and Practice, “Beyond the Hospital Door:




                                         18

      Community Resources Available for Persons with HIV Infection or AIDS in the
      United States” (Chicago: American Hospital Association, 1990).

      National Commission on AIDS, “Report of the Working Group on
      Social/Human Issues to the National Commission on AIDS” (Washington, DC,
      1987).

4.    See Carrier, Bressler, and Blankfort-Doyle.

      See General Accounting Office.

      Larry Gostin, Lane Porter, Hazel Sandomire, “AIDS Litigation Project: A
      National Survey of Federal, State, and Local Cases Before Courts and Human
      Rights Commissions,” (Washington, DC: Public Health Service, 1990).

      See Greenberg.

      See Holland and Conley.

      Nan Hunter, “Epidemic of Fear: A Survey of AIDS Discrimination in the
      1980s and Policy Recommendations for the 1990s” (New York: American Civil
      Liberties Union, AIDS Project, 1990).

      Intergovernmental Health Policy Project (IHPP), AlllS, A Public Health
      Challenge, vol. 1 (Washington, DC: The George Washington University,
      October 1987).

      See Linsk and Marder.

      See Mor.

      See National Center for Social Policy and Practice.

      See National Commission on AIDS.

      Preinspection    interviews, August-September    1991.

      Public Health Service, “Five State/Local Approaches for Preventing and
      Resolving HIV-Related Discrimination,” 2 vols. (Silver Spring: Birch and Davis
      Associates, Inc., 1988).

      State of New York, “AIDS: New York’s Response”            (Albany:   Department   of
      Health, 1989).

5.	   Director, Office of Medicaid Management,        BQC, to all regional administrators,
      et al., 16 February 1990.


                                            19

6.    Medicaid Program Review Guide, HIV/AIDS, Fiscal Year 1991-1992.

7.    Wendy E. Parmet, “AIDS and the Limits of Discrimination Law,” Law,
      Medicine and Health Care, pp. 61-72 (Summer, 1987).

8.    IHPP, A Summary of HW/AIDS Laws from the 1990 State Legisladve Sessions
      (Washington, DC, January 1991).

9.    The 10 metropolitan areas were Baltimore, Baton Rouge, Kansas City, Los
      Angeles, Memphis, Miami, Newark, New York, San Francisco, and Tulsa.

10.   Memorandum and expedited procedures from OCR Director to OCR Regional
      Managers, October 29, 1987.

11.   Agreements were between HUD and the Maine Human Rights Commission,
      the Minnesota Department of Human Rights, and the Wisconsin Equal Rights
      Division of the Department of Industry, Labor and Human Relations. The
      joint investigations were conducted in Maine. Minnesota’s complaints were not
      associated with the Fair Housing Amendments, and Wisconsin has not had any
      complaints.

12.   The five States are Arizona, Nebraska, Nevada, Utah, and Wyoming. An
      Arizona agency did investigate a complaint in 1991, but it will not do so in the
      future.

13.   See Linsk and Marder,




                                          20
                           APPENDIX             A


                 COMPL41N13 WILL BE INVESTIGATED

                      BY REGIONAL OFFICES OF

                    THE OFFICE FOR CIVIL RIGHTS

         U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES




Region I encompassessix States: (%mecticu~ Maine, Massachusetts,New
Hampshire,Rhode Islan@ and Vermont.

      JFK Federal Building

      Room 1875

      Boston, MA 02203

      (617) 565-1340


Region II encompassestwo States,New York and New Jersey,as well as Puerto Rico
and the Virgin Islands.

      26 Federal Plaza

      Suite 3312

      New York, NY 10278

      (212) 264-3313


Region III encompassesthe Districtof Columbi~ and Delaware, Marykm@
Pennsylvani~VirginiZ and West Virginia.

      3535Market St.

      Room 6300

      Philadelphia, PA 19104

      (215) 596-5381


Region IV encompasseseightStates: Alabam+ Florid% Georgi%   Kentucky,
Mississippi, North CarolinZ South Carolin~ and Tennessee.

      101 Marietta Tower
      Room 1504
      Atlanta, GA 30323
      (404) 331-2779




                                     A-1

Region V encompassessix States: Illinois,Indian%Michigan,Minnesota,Ohio, and
Wisconsin.

      105 West Adams

      16th Floor

      Chicago, IL 60603

      (312) 886-2359


Region VI encompassesfive States: Arkansas,Louisian~ New Mexico, Oklahom%
and Texas.

      1200 Main Tower
      Room 1360
      Dallas, TX 75202
      (214) 767-4056

Region VII encompassesfour States: IOWZ Kansas,Missouri,and Nebraska.

      601 East 12th Street

      Room 248

      Kansas City, MO 64106

      (816) 426-7277


Region VIII encompassessix States: Colorado, Montarq North Dako@ South
Dakot~ Utah, and Wyoming.

      1961Stout Street
      Room 840
      Denver, CO 80296
      (303) 844-4774

Region IX encompassesfour States: Arizorq California Hawaii, and Nevada.

      50 United Nations Plaza
      San Francisco, CA 94103
      (415) 556-8367

Region X encompassesfour States: Alaskz Idaho, Oregoq and Washington.

      2201 Sixth Avenue
      Mail Stop RX-1 1
      Seattle, WA 98121
      (206) 553-0473




                                     A-2

                                 APPENDIX             B

             STATE PUBLIC AGENCIES THAT WLLL INVESTIGATE         COMPLAINTS


ALABAMA                                       CONNECTICUT


Department of Human Resources                 Commission on Human Rights
Office of Civil Rights and                      and Opportunities
  Equal Employment                            90 Washington Street
50 Ripley Street                              Hartford, CT 06106
Montgomery, AL 36130-1801                     (203) 566-3352
(205) 242-1550
                                              Department of Aging
ALASKA                                        175 Main Street
                                              Hartford, CT 06106
State Commission for                          (203) 566-7770
  Human Rights
800 A Street                                  Office of Protection and Advocacy
Suite 202                                       for Persons with Disabilities
Anchorage, AK 95501                           60-B Weston Street
(906) 276-7474                                Hartford, CT 06120
                                              (203) 297-4300
ARKANSAS

                                              DELAWARE

Department of Human Services

Office of Long Term Care
                     State of Delaware

Post Office BOX 8059
                         Division of Aging

Little Rock, AR 72203
                        Millford State Service Center

(501) 682-8487
                               11/13 Church Avenue

                                              Millford, DE 19963

CALIFORNIA
                                   (302) 422-1386


Department of Health Services
                Office of Health Facility

Office of Civil Rights
                         Licensing and Certification
714 P St., Room 1050
                         3000 Newport Gap Pike
Sacramento, CA 95814
                         Wilmington, DE 19808
(916) 657-1411
                               (302) 995-6674

COLORADO
                                     DISTRICI’ OF COLUMBIA

State of Colorado
                            Department of Consumer and
Civil Rights Division
                          Regulatory Affairs
1560 Broadway, Suite 1050
                    Health Facilities Division
Denver, CO 80202
                             614 H Street, Northwest
(303) 894-2997
                               Room 1014
                                              Washington, DC 20001
Department of Health
                         (202) 727-7201
Health Facilities Division

4210 East 1lth Avenue

Denver, CO 80220-3716

(303) 692-2800



                                       B-1

District of Columbia
                           ILLINOIS
Office of Human Rights

  and Minority Business
                        Department of Human Rights
2000 14th Street, Northwest
                    623 Stratton Building
Washington, DC 20009
                           Springfield, IL 62706
(202) 939-8740
                                 (217) 785-5119

FLORIDA
                                        INDIANA

Department of Health and
                       Civil Rights Commission

  Rehabilitative Services
                      32 East Washington Street

Office of Civil Rights
                         Suite 90

1317 Winewood Boulevard
                        Indianapolis, IN 46204

Building 3, Room 203
                           (317) 232-2600

Tallahassee, FL 32399

(904) 487-1901
                                 IOWA


Department of Health and
                       Civil Rights Commission

  Rehabilitative Services
                      Grimes State Office

Office of Licensure and Certification
          507 10th Street

2727 Mahon Drive
                               Des Moines, IA 50319

Tallahassee, FL 32308
                          (515) 281-4121

(904) 487-2527

                                                Department of Inspection

Long-Term Care Ombudsman Council
                 and Appeals

1320 South Dixie Highway
                       Health Facilities Division

3rd Floor
                                      Lucas Office Building

Coral Gables, FL 33146
                         2nd Floor

(305) 663-2085
                                 Des Moines, IA 50319

                                                (515) 281-4233/4125

GEORGIA

                                                KANSAS

 Department of Human Resources

 Office of Regulato~ Services
                  Human Rights Commission

 878 Peachtree Street, NE
                      Landon State Office Building

 Atlanta, GA 30309
                             Suite 851S

‘(404) 894-5137
                                900 South West Jackson

                                                Topeka, KS 66612-1258

HAWAII
                                         (913) 296-3206


Department of Health
                           KENTUCKY

Hospital and Medical Facilities Branch

1270 Queen Emma Street
                         Commission on Human Rights

Honolulu, HI 96813
                             701 West Mohammed Ali Boulevard

(808) 586-4077
                                 Post Office Box 69

                                                Louisville, KY 40201-0069

IDAHO
                                          (502) 588-4024


Department of Health and Welfare
               Office of Inspector General

Bureau of Facility Standards
                   Division of Licensing and Regulations

450 West State Street
                          CHR Building, 4th Floor E

Boise, ID 83720-5450
                           275 East Main Street

(208) 334-6626
                                 Frankfort, KY 40621-0001

                                                (502) 564-2800



                                          B-2
LOUISIANA
                                  MISSISSIPPI


Department of Social Services
              Division of Medicaid

Civil Rights Bureau
                        Office of Long-Term Care

546 Main Street
                            Robert E. Lee Building, Suite 801

Baton Rouge, LA 70801
                      239 North Lamar Street

(504) 342-2700
                             Jackson, MS 39201-1399

                                            (601) 359-6050


                                            MISSOURI

Human Rights Commission

State House, Station 51
                    Commission on Human Rights

Augusta, ME 04333
                          Post Office Box 1129

(207) 289-2326
                             Jefferson City, MO 65102-1129

                                            (314) 751-3325

MARYLAND

                                            MONTANA

Commission on Human Relations

20 East Franklin Street
                    Human Rights Commission

Baltimore, MD 21202-2274
                   1236 6th Avenue

(410) 333-1717
                             Post Office Box 1728

                                            Helena, MT 59624-1728

MASSACHUSETTS
                              (406) 442-5506


Commission Against Discrimination
          NEW HAMPSHIRE

1 Ashburton Place

Room 1305
                                  Department of Health and
Boston, MA 02109
                             Human Services
(617) 727-3990 Ext. 211
                    Bureau of Health Facilities
                                              Administration
MICHIGAN
                                   6 Hazen Drive
                                            Concord, NH 03301-6527
Department of Civil Rights
                 (603) 271-4471
1200 6th Street

Detroit, MI 48226
                          Department of Health and
(313) 256-2628
                               Human Setvices
                                            Long-Term Care Ombudsman
Department of Health
                       6 Hazen Drive
Health Facility Licensing
                  Concord, NH 03301-6505
  and Certification
                        (603) 271-4375
3423 North Logan

Martin Luther King Boulevard
               NEW JERSEY
Lansing, MI 48909

(517) 335-8491
                             Department of Health

                                            Division of Health Facilities Evaluation

MINNESOTA
                                  300 Whitehead Road

                                            Trenton, NJ 08625-0367

Department of Human Rights
                 (609) 588-7758

7th P1. and Minnesota St.

500 Bremer Towers

St. Paul, MN 55101

(612) 296-5667





                                     B-3

Department of Law and                            OHIO

  Public Safety
Division on Civil Rights                         Department of Health

CN 089                                           Division of Health Facility Regulations

Trenton, NJ 08625-0089                           Complaint Unit

(609) 984-3091                                   246 North High Street

                                                 Post Office Box 118

NEw MEXICO
                                      Columbus, OH 43266-0118

                                                 (614) 644-1952

Department of Labor
Human Rights Division                            OKLAHOMA

1596 Pacheco Street
Sante Fe, NM 87502                               State Health Department

(505) 827-6838                                   Special Health Services

                                                 1000 Northeast 10th Street

Department of Health                             Oklahoma City, OK 73117-1299

Office of Licensing                              (405) 271-6868

  and Certification
525 Camino De Los Marquez                        Department of Human Services

Suite 2                                          Medical Services Division

Sante Fe, NM 87502                               P. O. BOX 25352

(505) 827-4200                                   Oklahoma City, OK 73125

                                                 (405) 557-2539

NEw YORK

                                                 Department of Human Services

State of New York
                               Aging Services Division

Division of Human Rights
                        Long-Term Care Ombudsman

Office of AIDS Discrimination   Issues
          P.O. BOX 25252

55 West 125 Street
                              Oklahoma City, OK 73125

New York, NY 10027
                              (405) 251-6734

(212) 870-8607

                                                 Human Rights Commission

NORTH CAROLINA
                                  Jim Thorpe Building

                                                 Room 480

Department of Human Resources
                   2101 North Lincoln Boulevard

Division of Medical Assistance
                  Oklahoma City, OK 73105-4904

1985 Umstead Drive
                              (405) 521-2360

Post Office Box 29529

Raleigh, NC 27626-0529
                          OREGON

(919) 733-6681

                                                 Long-Term Care Ombudsman
NORTH DAKOTA
                                    Building B, Suite 9
                                                 2475 Lancaster Drive, NE
Department of Health
                            Salem, OR 97305
Division of Disease Control
                     (503) 378-6533
State Capitol

Bismark, ND 58505
                               Department of Human Resources
(701) 224-2378
                                  Senior and Disabled Services
                                                 313 Public Service Building
                                                 Salem, OR 97310
                                                 (503) 378-3751




                                          B-4

PENNSYLVANIA                                 VERMONT


Human Relations Commission                   Department of Aging and Disability

101 South Second St., Suite 300              Division of Licensing and Protection

P. O. Box 3145                               103 South Main Street

Harrisburg, PA 17105-3145                    Waterbury, VT 05671-2306

(717) 783-6481                               (802) 241-2345


RHODE ISLAND                                 Human Rights Commission

                                             133 State Street

Commission for Human Rights
                 Montpelier, VT 05633-6301

10 Abbott Park Place
                        (802) 828-2480

1st Floor

Providence, RI 02903-3768
                   VIRGINIA

(401) 277-2661

                                             Department of Medical

SOUTH CAROLINA
                                Assistance Services

                                             Division of Quality Care Assurance

Human Affairs Commission
                    600 East Broad Street

Post Office Drawer 4490
                     Suite 1300

Columbia, SC 29240
                          Richmond, VA 23219

(803) 253-6322
                              (804) 786-7933


Health and Human Services
                   Department for Rights of Virginians

Finance Commission
                            with Disabilities

1801 Main Street
                            101 North 14th Street, 17th Floor

Columbia, SC 29201
                          Richmond, VA 23219

(803) 253-6374
                              (804) 225-2042


SOUTH DAKOTA
                                Department of Health

                                             Division of Licensure

Department of Human Rights
                    and Certification

222 East Capitol Avenue
                     3600 West Broad Street

c/o Capitol Building
                        Suite 216A

500 East Capitol Avenue
                     Richmond, VA 23230

Pierre, SD 57501-5070
                       (804) 367-2100

(605) 773-4493

                                             Department for the Aging

TENNESSEE                                    Office of Long-Term Care Ombudsman

                                             700 East Franklin St., 10th Floor

Department of Health
                        Richmond, VA 23219

Division of Health Care Facilities
          (804) 225-3141

Office of Civil Rights Compliance

283 Plus Park Boulevard
                     WASHINGTON

Nashville, TN 37219-5407

(615) 367-6318
                              Human Rights Commission

                                             711 South Capitol Way

TEXAS
                                       Suite 402

                                             Evergreen Plaza Building

Department of Health                         Olympia, WA 98504-2409

Bureau of Long Term Care                     (206) 753-0884

1100 West 49th Street
Austin, TX 78756-3199
(512) 458-7709


                                      B-5

Department of Social and
  Health Services
Office of Equal Opportunity
Post Office BOX 45839

Olympia, WA 98504
(206) 753-0970

WEST VIRGINIA


Department of Health and
  Human Services
Health Facility Licensure
  and Certification
Capitol complex
Building 3, Room 535
1900 Kanawha Boulevard
Charleston, WV 25305
(304) 558-0050

Human Rights Commission
1321 Plaza Gast Room 104/106
Charleston, WV 25301-1400
(304) 558-2616

WISCONSIN


Board on Aging and Long Term Care

214 N. Hamilton St.

Madison, WI 53703-2118

(608) 266-8944


Department of Health and

 Social Services

Division of Health

Bureau of Quality Compliance

Facilities Regulation Section

1 West Wilson Street

P. O. Box 309

Madison, WI 53701-0309

(608) 266-2055


Department of Industry, Labor

  and Human Relations

Equal Rights Division

P. O. BOX 8928

201East Washington Avenue

Madison, WI 53708

(608) 266-1997





                                     B-6

                            APPENDIX                            C


                       LOCAL PUBLIC AGENCIES
                  THAT WILL INVESTIGATE COMPLAINTS


KANSAS CITY, MISSOURI

Kansas City Human Relations Department

414 East 12 St.

Kansas City, MO 64106

(816) 274-1194



LOS ANGELES, CALIFORNIA

HIV/AIDS Discrimination Unit
City Attorney’s Office
200 N. Main St., Suite 1600
Los Angeles, CAL 90012
(213) 237-1901


NEw YoR& NEw YORK


NYC Commission on Human Rights

40 Rector St., 9th Floor

New York, NY 10006

(212) 306-7465



SAN FRANCISCO, CALIFORNIA

San Francisco Human Rights Commission
1170 Market Street
Suite 500
San Francisco, CA 94102
(415) 252-2500




       .!
            Based on our contacts in 10 metropolitan   areas.


                                             c-l

                  APPENDIX                               D


FULL TEXTS OF COMMENTS FROM HHS AGENCIES

  Office for Civil Rights ..................................................D-2


  Public Health Service ...................................................D-5


  Health Care Financing Administration .....................D-7


  Administration        on Aging ............................................D.ll





                                      D-1

  ,.m* .%                                                                                      [D-2]
�
&#’                                                                         offiaoftho~

;.                DEPARTMENT OF HEALTH a HUMAN SERVICES

 ;9

                                                                            Offbforolvtlm
  “%-

    4                                                                       washhota% D.C.   20201




                                                  3        =~
                                                  DIG-U    ­
         Ml?MORANDU?f

                                                   %s..=2=
         DATE         :


         FROM         :	    Ronald G. Copeland ‘\-        Nu

                            Act ingDirector

                            office
 for Civil Rights


         SUNECT       :	    OCR Comments on OIG Draft  Report:    ‘WIV/AIDS:   Nursing
                            Home Discrimination Complaints,lt    0EI-03-91-O0960.

         TO           :	 Brvan B. Mitchell
                         Principal Deputy Inspector General
                         Office of the Inspector General

         AS       a
                  follow-up to the comments we made in the March 8 exit
            conference  between OCR and OIG staff, I am forwarding our Cements
            on the OIG Draft Report: ‘sHIV\AIDS:   Nursing Home Discrimination
            Complaints .“

            The Report makes three recommendations. The first two are already
            being carried out to the degree possible under our current budget
            restraints.
            RECO~NDATION              #lu .

            The    Office        for         Rights supports a Departmental public
                                          Civil
            information        initiative, and we would welcome a lead role in such an
            effort with PHS, HCFA and       ....
 AoA.     Such an effort would require

            considerable beefing-up of OCRis             public information capabilities
            (staff and resources). OCR is already distributing thousands of
            fact sheets in six foreign languages (including Spanishf vietn~we              .

            and Haitian-Creole).           These fact sheets offer specific, easlry .

            understood information on types               of discrimination as well as
            complaint filing procedures.             But more publications, newspaper and   .“
            radio campaigns (not to mention N public service annoUncemen*)+—
            and all the      other elements of a successful public mfomation
            effort   are prohibitively       expensive.     We should also be certain that
            these public     information efforts do not displace efforts on Title
            VI, Hill-Burton       and  the  ADA.
                                                                                                   [D-3]





The OCR already undertakes efforts to provide technical assistance

to State and local governments, as well as to nursing homes (as in

Region 111’s current program of assistance through a State-wide

association of Pennsylvania nursing homes).      We are constantly

exploring ways to improve our technical assistance initiatives~

including a possible notification system to State agencies and AIDS

advocacy groups.. Budgetary constraints remain a major inhibitor to

doing more.

As we stated in the exit   conference, OCR does not question the
goals set forth in recommendations” 1 and 2; however, we are
concerned that the implication is that we are resistant, if not
derelict (i.e.: The OCR “should offer technical assistance”) . In

some way, the repoti should address the problems with available and

anticipated resources.



R=O-DATION           #3<
  �




The OIG report acknowledges our experience in dealing with AIDS
cases nationally and our ability to track them in our data base.
On the other hand, it points out our failure to meet the 90-day

time frame we established ourselves. The report does not indicate

why this deficiency has occurred  (See our earlier  comments) . W8
suggest that the report highlight    the effects of our range Of
enforcement responsibilities, the increased volume of complaint
receipts coupled with a diminution of resources.
The OCR recognizes the time-frame problem   and has developed new
processing guidelines in the revised Investigative Procedures
Manual. Copy attached for your ready reference.

GF!N~    co~


In discussing me    investigative process, the repofi does .no& ._
address the enforcement capability of OCR.    The report implles that    --
compliance agreements are OCRIS    sole means  of enforcing the hW.
This was also a recurring criticism     of the   OIGts report   on our     -“
Hill-Burton activities.      -                                     ____ _

On page 13, in           the    paragraph          “Fines and Monetary Penalties were
Rare,’$the OIG       suggests           that      OCR     willfully     refrains      from lIUpOSln9
fines.   The    rePort         should      note    that       OCR has    no authority      to impose
fines.
                                                                 [D-4



OCRco~#       P“ 3

            ~

GENERAJ,COMl@NT      ‘t.
The report refers to OCR as the Office   OF   Civil Rights, not the
Office FOR Civil Rights.
The use of the word “respondents” (pp. 11 and 14) is unclear and

confusing. When referring to OCR, the report should use the words

“regional manager(s) .“

Attachment




                                                                .—




                                                                     .—
   *r-        *
:	.


     4
                   DEF~MENT       oF HEALTH & HUMAN   SERVICES                      Pubfc~
:.                                                                                               [D-5
‘$            -
                                                                                    Memorandum
                   .MAY    19~
                  Acting Assistant Secretary for Health


         -        Office of Inspector ~eral            (OIG) Draft Report “HIV/AIDS:
                  Nursing Home Discrimination         Complaints,”   OEI-03-91-00960

         To       Acting    1n8pector   General, OS

                  Attached are the Public Health S~ce    comments on the subject

                  OIG draft report. We have provided ccnnmentson the report’s

                  recommendations that are directed to the Office for Civil

                  Rights, as well as suggested narrative changes to clarify

                  certain statements from a public health perspective.



                                            dfiiA?#
                                            Audrey P
                                                     A-&

                                                 Manley, M.           ,   M.P.H.


                  Attachment

                                                                                             [D-6]




 We have reviewed the ffndlngs and conclusions in this draft
 report. Although there are no recommendatbns directed
 specifically to PHS, we offer the following comments.
 We concur with the first recmmenda tion which calls for the

 Office for Civil Rlght8 (OCR) to lead a De~­
 initiative with PHS,      the Health     Care    Finanoing         ~strationt
 and the l@mi.nistration     on ~ing
                                 to imp~    public information
 about the occurrence of this type of infommtion and where to

 file complaints. If it becomes an oCR priority to initiate

 and lead this   effort,    we will     be willing        to    assist      them in
 this  endeavor.
 We support in pzinciple     the report’s second and ~
 recommendations  that   OCR  offer technical assistance to State
  and local ~tsr         and meet its            three     month     time        frame for
- resolving AIDS-related complaints.      H~?         while  we support
 the sharing  of expertisa   and expedited    resolution    of AIDS-
 related  complaints,  we recognize   that implementation      of the
 OIG rec ommendations could be impacted by 0CR8s staffing levels
 and budgetary resources. Therefore, .we defer to OCR’s
 position regarding the feasibility of ~lementhg    these

 recommendations.

 Finally, we offer   the following   suggested     wording   to help
 clarify an item in the report. On pages i and 1, the report
 states that “AIDS takes on characterzstfcs of long-term
 illness ...,” and “... AIDS h beginning to take on the
 characteristics   of a long-term  dLsease.    . . m We suggest that it
 would be more appropriate to s~te Mat “Iw~Lth therapeutic
 advances that both improve survival      and   quality    of life,
 persons with HIV and AIDS will          need the        full    range      of    health
 care sexn7ice8 similar to those         a~i~ble          to    ~ferers           of other
 chronic  illnesses.  ”
                 DEPARTMENT   OF HEALTH&    HUMAN SERVI_

      G
        /
   1
  7
8’-99
                                                                                 Memorandum
  Date           “JRulm                                                                                 .. .

  From
                 Bruce C. Vladeck
                 Administrator

  Subject	       Office of Inspector Genera.i (OIG) Draft Reporc
                                                                   “HIV/AIDS: Nursing Home.
                 Discrimination
                            Complains”(OE143-91_)
   To
                 Bryan B. Mitchell
                 Principal
                        DeputyInspector

                                     General



                        We reviewed the above-referen=d draft report which examined the handling of
                  nursing home discriminationcomplaintsfiled against nursing homes that do not admit
                  persons with the human irnrnunodeficiencyvirus (HIV) or squired immune deficiency
                  syndrome (AIDS).

                        We commend OIG for its extensive examination
                                                                  ofthedataand forproviding

                  several

                        useful.insi@ts on the issue of nursing home discretion   against Persons with
                  HIV or AIDS.

                       HCFA concurs  withtherecommentition
                                                         contained
                                                                 inthereport.

                                                                             Our deticd
                  commentsareattached foryourconsideratio~
                                                        ~ank YOU fOrtheopportuni~to

                                          draft
                  reviewand comment on this         Pleaseadvise

                                              report.          usifYOU agreewithour

                         on thereport’s
                  position                         atyourearliest

                                      recommendation            convenience=


                  Attachment

                                                         .-


                                           %





             o
  Lc         o
  0          *




                                                         ——
                                                                                   [D-8]



          c~)
                02                                                mom
                HIV/AIDS:   Nursing Home Discrimination Complaints
                                (OE1-03-91-00960)



Recommendation

The Office for Civil Rights (OCR) should lead a departmental initiativewith the
Public Heaith Service, Health Care Financing Admi.rtistratio~ and Administration on
Aging to improve public information about the occurrence of nursing home admission
discriminationagainst persons with human immunodeficiencyvirus (HIV) or squired
immune deficicnq syndrome (AIDS), and where to ~e complaints.

HCFA Resnonse

We concur with the recommendation.     We recognize the general need for more
intensiveuse of outreach materialsto improve access to HIV/AtDS-reiated care under
Medicaid and would be happy to work with OCR. We have already begun
preliminary work within HCFA to consider how HCFA central office and regional
office (RO) staffs can help develop State and local outreach materials and more
closely coordinate with OCR.

In addition, HCFA has been taking a variety of actions to address
                                                                HIV/AIDS
discrimination:

o     In the May/June1988issue
                             of~ublic            formerHCFA
                                    HealthRenorts,
      Administrator William Roper wrote an article called “Making Fair Decisions
      About Financing Care for People With AIDS.” In the article, Dr. Roper
      indicated that a central principle guiding HCFA in the fight against HIv/mS
      is that “care must never be denied to a person who has contracted AIDS or
      HIV”fnfcction.”

o	    OCR discussed referral procedures and &nds in complaints during HCFA’S
      annual regional coordinators’ meeting in 1989.

0     In a February 16, 1990, memorandum to the ROS, HCFA outlined the legal
      basis for pursuing discrimination complaints, procedures for referrals to Om,
      aid possible remedies. The.- ROS subsequently Conveyd this information
                                                                          .     . .to the
      States.
                                                                                                 [D-!


Page 2

0	       OXIMay 1, 1992 HCFA obtained and disseminated an opinion from the OffiCC
         of the GeneralCounselindicating    thatMedicaidmanaged careprfide= may              “
         not disenroll a recipient with HIV/AIDS against that person’s will.

o        A number of ROS have reported their active involvement with their OCR and
         Public Health Service counterparts in referrirt~ documenting and helping to
         negotiate reported cases of HIV/~S-relateddiscrimination. pretiq
         analysis of State Medicaid program reviews in the area of HIV/AIDS   CQ-
         that HCFA RO coordinators have been active in addressing discrimination.

While this recmnrnendationis consistentwith our previous activitiesand plans with
respect to HIV/AIDS discrimination,Migetaxy considerationsmay constrainthe
actual volume of materials HCFA can produce and distribute directly, given the
variety of audiences listed in MC report. Model materials developed either by HCFA
or by the States themselves may provide a useful alternative.

General Comments

OIG points out that of the 62 individuals seeking admission, the eventual status of X
was unknown. This is an indication that more a~untability     by the investigating
agencies is needed. According to the rcpo~ r+idvdy few complaints are filed
nationwide and there is widespread lack of a~eness    about the investigating agencies.
The credibili~ and future success of lo@ State, and Federal agencies in resolving
complaints will be hindered if the few alnplainants they do seine “fall through the
cracks.”

Based on the facts presented in this repo~ a further recommendation OIG might
consider is that agencies which handle ~rnplaint.s about HIV/AII)S discrimination in
nursing home admissions should emphasize Mrrecting current violations, as well as
preventing future discrimination. The fact thattheaveragelength of OCR’S
investigation period to resolve DS     discrimination cases is nearly 7 months (more
than twice their goal) is of great concern. It wcdi perhaps be interesting and
enlightening if the study looked in detail at the causes for discrimination. This is not
to suggest that any cause for discrimination is justifiable, M the case of the
discrimination itself could seine as a prompt to finding solutions. For example if
persons with AIDS are being denied access to nursing homes because of ignorm’w or
fear, training and education may be a remedy. However, if these individuals are
denied setices for other reasons, ~uch as the cost of their care, or a facil[q’s inability
to provide the types of care needed, then the recommendations      offered by the study
may not alleviate discrimination problems.




                                                              —                                  ..—
                                                —
                                                                                         [D-

Page 3

Technical Comments                                                                           ..
Page 1: It might be useful to note in the background section how discrimination in           -
nursing homes compares to HIV/AIDS discrimina tion with other pruvider groups.
It may set a proper context for nursing home dixrimhticm     ~ hdi=~g    how m~
and what the nature of complaints are against other provide~ such as health
maintenance organizations, dentists, general practitionc~ etc

Page 11: The report states thatof 62 complainants seeking admissio~ only 12 wem
admitted. While it is titai that facilities against which complaints are filed take
corrective action to prevent future discrimination (e.g. review admission policies or
maintain a record of reasons certain applicants are not admitted), the fact that the
complainants need to find placement in nursing homes is a serious       matter. OIG might
cons;der conducting a de~ed anal~is to exar&ne why “typical         corrective actions” do
not include getting the person with AIDS into a nufiing home.


             /




                                                                             .    ,.
                                                                                                    [D-1

           DEPAR~         OF HEAL’’lli & HUMAN =-                                    Ofiimdlbesaau=’y
                                                                                    ~4PQl

                                                                                    W~        DC. ZXUll


     To:               Bryan B. Mitchell

                       Principal Deputy Inspector General

     FROM :            Deputy Commissioner on Aging

     SUBJECT:          OIG Draft Report:   “HIV/AIDS : Nursing Home

                       Discrimination Complaints,m 0E1-03-91-O0960


    Thank          you for the opportunity to review the above-referenced

    draft          report.  The report addresses a critical subject, and the
    purpose,   background,            findings      and recommendations       are   clearly
    presented.

    we suggest          only   the   following      minor   change=:

              �
                      on page 5, paragraph           1, change ‘Federally           funded
                      nursing      homes” to “nursing        facilities      which parti;&
                      in the Federal         Medicare    and Medicaid       programs.”
                      will    clarify     that tectilcally        the residents,        not the
                      homes, receive         Federal    funding.       (The homes are
                      certified       to participate       in these     federally-funded
                      programs.        Also,   the 1987 nursing         home reform      law uses
                      the term “nursing         faci.lity1°   for homes previously
                      designated       as skilled     or intermediate        care facilities.)

              �	
                      on page 6, paragraph 4, change the first sentence to
                      specify the type of complaints referred to — complaints
                      regarding HIV/Aids discrimination in admissions — to

                      avoid any possible confusion on the part of the reader.

              �	      The finding on page 11 — “Fewer than 20% of cases
                      reviewed found nursing homes in compliance~$— should be
                      included in the Executive Summary. The summary now
                      refers only to cases requiring “corrective action”, but
                      the term “compliance~~conveys a more descriptive
                      concept for those not familiar with the usual Office
                      for Civil RightsC approach.
    Many State Long-Term Care OtiUdsrnen                    and attorneys in the Network
    on Aging have developed strategies                 for resolving complaints about
    nursing      home discrimination         in a~isslons          due to the applicants
    physical        condition.      This experience       may be useful       to the work of
    any departmental           task  force   which may be formed in response to
    this    report.         We look forward to participating             in such a group  to
    address      the    important    subject   of this     report.


                                                                       2i?%-E@ .




—
